                                                                    *I'

                                   /                 NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: I03020006                                                                      Page 1 of 1



        NSF-OIG received an anonymous letter claiming that a company' falsely charged expenses to
        SBIR contracts and grants and submitted duplicate proposals for the same research. The
        anonymous complaint alleged that company management told employees to use old research to
        maximize profits on current contracts. This anonymous letter was also sent to four other
        agencies. A joint investigation was organized and records of research awards were retreived
        from 7 agencies. Initial review found that the someidentical research results had been submitted
        to different agencies, in violation of the SBIR program conditions.

        Ultimately, we found that the most serious duplication involved an NSF Phase I SBIR award.
        Out of 15 tables and figures submitted in the final report, 12 were submitted 20 times in other
        agencies reports. We also found that the company submitted a Phase I SBIR proposal to DoD
        that did not disclose that a substantial similar proposal had been previously submitted to another
        agency.

        We referred our findings to the Civil Division of the U.S. Attorney's Office. The company
        signed a Release and Settlement Agreement with the U.S. Attorney's Office, agreeing to pay the
        total of $155,500 to resolve this matter. As part of the agreement, the company also
        implemented written procedures to avoid duplicative research in the future.

        Accordingly, this case is closed.




         ' Microcoating Technology, Inc., now known as nGimat Co.


ISF OIG Form 2 (1 1/02)
